No. 19-1287
__________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
IN RE ROBERT SARHAN AND ANABELLA SOURY
Petitioners,
__________________________________________________________________
On Petition for a Writ of Mandamus and Writ of Prohibition to the
Eleventh Circuit Court of Appeals for the Eleventh Circuit
__________________________________________________________________
BRIEF IN OPPOSITION
__________________________________________________________________
RAUL GASTESI, JR.
Counsel of Record
GASTESI, LOPEZ & MESTRE, PLLC.
8105 NW 155th Street
Miami Lakes, Florida 33016
Tel: 305-818-9993
Fax: 305-818-9997
efiling@glmlegal.com
gastesi@glmlegal.com
Counsel for Respondent H&H Investors, Inc.

1

QUESTIONS PRESENTED

A. Questions Presented as stated by Petitioners
Should a writ of mandamus be issued to the Eleventh Circuit, requiring it
(A) to disregard matters dehors the record,
(B) to rule without regard to matters dehors the record,
(C) to reverse the order of the district court,
(1) which granted a motion to dismiss the complaint based on a matter, which was:
(i) outside the “four corners” of the complaint, and
(ii) dehors the record, and
(2) which disallowed requested relief from a state-court judgment under the Rooker
Feldman Doctrine, where the judgment was entered:
(a) without notice to Anabella Soury,
(b) without affording to her an opportunity
(i) to appeal or
(ii) to be heard on the due-process violations, and
(c) without affording to Robert Sarhan an opportunity to be heard on those
due-process arguments, and
(d) Mandating that the district court accept jurisdiction to grant relief from the
state court judgment in regard to the due-process challenges to that judgment that
the state court would not hear, notwithstanding the Rooker-Feldman Doctrine?
(e) Is mandamus available to mandate relief from orders that recite reliance on
items dehors the record and violate the ministerial duty to rule just on items within
the record?
(f) Is mandamus available to mandate relief from an order of dismissal of a
complaint that recites reliance on items dehors the “four corners” of the complaint
and violate the ministerial duty to rule just on items within those four corners?

2

(g) Is mandamus available to mandate that the court take jurisdiction where it
declined to do so because of a misinterpretation of the Rooker-Feldman Doctrine?
(h) Is a judgment of foreclosure against Anabella Soury and Robert Sarhan, as
owners of the foreclosed property, a denial of due process where that judgment was
entered without serving, and without notice to, Anabella Soury or her attorney and
without affording to Robert Sarhan an opportunity to be heard?
Should a writ of prohibition be issued to the Eleventh Circuit, prohibiting it:
(i) From considering any matters dehors the record, and
(j) Considering matters outside the “four corners” of the complaint?
(k) Is prohibition available to prohibit reliance on items outside the record?
(l) Is prohibition available to prohibit reliance on items outside the “four corners” of
the complaint in ruling on a motion to dismiss the complaint?
(m) Is a judgment of foreclosure against Anabella Soury and Robert Sarhan, as
owners of the foreclosed property, a denial of due process and void where that
judgment was entered without serving, and without notice to, Anabella Soury or her
attorney and without affording to Robert Sarhan an opportunity to be heard?
(n) Should a writ of certiorari be issued to the Eleventh Circuit determining that
the state-court judgment was entered without notice to Anabella Soury, without any
opportunity to be heard, was a denial of due process, and was void, and that the
district court should order the state court to invalidate the judgment and that the
relief hereinabove mentioned in regard to mandamus and prohibition should be
granted via certiorari?
(o) Should sanctions be permitted to be based on matters dehors the record?

3

MISSTATEMENTS IN PETITIONERS’ QUESTIONS PRESENTED
Pursuant to Supreme Court Rule 15.2 counsel is required to address any
perceived misstatements of fact or law in the petition. Essentially every question
presented above by the Petitioners to this Court contains a misstatement and the
same are addressed below as follows:
1. All matters contained in the Eleventh Circuit’s Order of Dismissal formed
part of Petitioners’ initial Emergency Complaint and attachments to the
United States District Court for the Southern District of Florida.
2. In the underlying action before the Circuit Court for the Eleventh Circuit for
Miami Dade County, Anabella Soury, a.k.a. Anabella Sarhan was served,
filed a pleading that was taken as her “Answer” by the Court and a Summary
Judgment was entered against her. For the next nearly 6 years Ms. Soury
never took part in the proceedings from that moment on, even though her
attorney was served with over sixty (60) pleadings including the Trial Order.
Soury failed to attend the Trial which resulted in the ensuing Judgment.
3. Although Summary Judgment was entered against Ms. Soury on April 10,
2013, Ms. Soury was provided an opportunity to be heard on her Motion titled
“Defendants’ Emergency Motion for Relief from Judgment as Void” before
Judge Hanzman on June 20, 2019.
4. Dr. Robert Sarhan was afforded the same opportunity to be heard on his
Motion titled “Emergency Motion to Vacate Judgment of Foreclosure Due to
Fraud on the Court” three days earlier, on June 17, 2019.

4

5. At the June 20, 2019 hearing, both Mr. Sarhan and Ms. Soury appeared and
were represented by their respective counsel. Mr. Sarhan’s counsel, Mr.
Arthur Morburger, attempted to argue the Motion on Ms. Soury’s behalf
although Ms. Soury was represented by counsel, Mr. Robert Moore, who was
present at that post-judgment hearing. Mr. Morburger was allowed in open
Court an opportunity to appear as counsel for Ms. Soury and make an
argument. Mr. Morburger refused. Counsel for Ms. Soury nonetheless argued
the Motion on her behalf. Notably, there is no mention of how or what
argument would have been made that would have resulted in a different
ruling.
6. There is no denial of due process to either party. Robert Sarhan participated
in the trial court proceedings, appealed numerous times, and has removed
the matter several times to federal court, appealed each and every state court
ruling, several times. Through it all, the Final Judgment has been upheld. As
to Ms. Soury, Ms. Soury was properly served, responded and summary
judgment was entered against her on April 10, 2013. This Summary
Judgement still stands, and Ms. Soury never sought to set the same aside or
appeal.
7. Given the fact that Final Judgment was appropriately entered in the trial
court level, and the parties have had ample opportunity to appeal and be
heard, and the Final Judgment has been upheld by numerous Courts; the
Rooker Feldman Doctrine applies.

5

8. Lastly, sanctions were properly entered by the Eleventh Circuit Court of
Appeals as the Emergency Complaint filed in the District Court and the
subsequent appeal to the Eleventh Circuit was found to be frivolous. Sarhan
v. H & H Inv’rs, Inc., No. 19-12676-AA, 2020 U.S. App. LEXIS 767 (11th Cir.
Jan. 9, 2020).
9. This appeal is just as frivolous.

6

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
Certificate of Interested Parties and Corporate Disclosure Statement
pursuant to 11th Cir. R. 26.1 stating that the following persons and entities have a
financial interest in the outcome of this case:
1. Dr. Robert Sarhan as Petitioner.
a. Dr. Robert Sarhan is represented by the Law Office of Arthur J.
Morburger.
2. Anabella Soury, a.k.a. Anabella Sarhan, as Petitioner.
a. Anabella Soury is represented by the Law Office of Arthur J.
Morburger.
3. H & H Investors, Inc. as Respondent. H & H Investors, Inc. received a final
judgment on July 31st, 2017 and foreclosed on Plaintiff’s property.
a. H & H Investors, Inc. is represented by Gastesi, Lopez & Mestre,
PLLC.
b. H & H Investors, Inc. is owned 100% by Rafael Halim, Individually.
c. H&H Investors’ business address is: 11810 S.W. 206th St. Miami, Fl
33177.
4. Arthur Morburger, Esq.- Law Office of Arthur J. Morburger. Counsel for
Petitioners, Robert Sarhan and Anabella Soury, a.k.a. Anabella Sarhan.
a. Address: 19 W. Flagler St. Ste. 404, Miami, FL 33130

7

5. Raul Gastesi, Jr., Esq.- Gastesi, Lopez & Mestre, PLLC. Counsel for
Respondent, H & H Investors, Inc.
a. Address: 8105 N.W. 155 Street, Miami Lakes FL 33016.

8

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

MISSTATEMENTS IN PETITIONERS’ QUESTIONS PRESENTED

3

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT

6

TABLE OF CONTENTS

8

TABLE OF AUTHORITIES

9

DIRECTLY RELATED CASES PURSUANT TO RULE 14.1(b)(iii)

11

OPINIONS AND ORDERS BELOW

13

STATEMENT OF JURISDICTION

14

INTRODUCTION

14

STATEMENT OF THE CASE

18

REASONS FOR DENYING THE PETITIONS

23

ATTORNEY’S FEES COSTS AND SANCTIONS

36

CONCLUSION

37

CERTIFICATE OF COMPLIANCE

39

CERTIFICATE OF SERVICE

39

9

TABLE OF AUTHORITIES
Cases
Ass'n for Disabled Ams., Inc. v. Amoco Oil Co., 211 F.R.D. 457, (S.D. Fla. 2002)
…….................................................................................................................................28
BBG Design-Build, LLC v. Southern-Owners Ins. Co., 2019 U.S. Dist. LEXIS
223307 (N.D. Fla. October 11, 2019)............................................................................26
Blonder v. AGC Grp., Inc. (In re Blonder), No. 13-76658-JRS, 2015 Bankr. LEXIS
3352 (Bankr. N.D. Ga. Sep. 28, 2015)..........................................................................28
Casale v. Tillman, 558 F.3d 1258 (11th Cir. 2009)................................................29, 30
D. C. Court of Appeals v. Feldman, 460 U.S. 482..................................................29, 30
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280 (2005) .......................30
Hassenflu v. Pyke, 491 F.2d 1094 (5th Cir.1974)..................................................23, 24
Lomax v. Reynolds, 119 So. 3d 562 (Fla. 3d DCA 2013) ............................................35
Miami Bank & Tr. Co. v. Rademacher Co., 149 Fla. 24, 5 So. 2d 63 (1941)..............28
Powell v. Powell, 80 F.3d 464, (11th Cir. 1996) …......................................................29
Sarhan v. H & H Inv’rs, Inc., 796 F. App'x 678 (11th Cir. 2020)...............................13
Sarhan v. H & H Inv'rs, Inc., 257 So. 3d 996 (Fla. 3d DCA 2018).............................20
Sarhan v. H & H Inv’rs, Inc., No. 3D19-1322, 2019 Fla. App. LEXIS 14186 (3d DCA
Sep. 18, 2019)...........................................................................................................19, 31
Sarhan v. H & H Inv’rs, Inc., No. 19-12676-AA, 2020 U.S. App. LEXIS 767 (11th
Cir. Jan. 9, 2020).................................................................................................5, 13, 37
Seay v. Eagle Cleaning Serv., No. 2:18-cv-01522-LSC, 2019 U.S. Dist. LEXIS 71625
(N.D. Ala. Apr. 29, 2019)...............................................................................................25
Stephens v. Mid-Continent Cas. Co., 749 F.3d 1318 (11th Cir. 2014)........................26
Syngenta Crop Prot., Inc. v. Henson, 537 U.S. 28, (2002) ……………………….........14
Taiyo Corp. v. Sheraton Savannah Corp., 49 F.3d 1514 (11th Cir. 1995).................37
United States v. Camejo, 929 F.2d 610 (11th Cir. Fla. April 22, 1991).........23, 24, 25

10

United States v. Napper, 887 F.2d 1528 (11th Cir. 1989).....................................32, 33
Wilson v. Gen. Tavern Corp., 469 F. Supp. 2d 1214 (S.D. Fla. 2006).........................26
Wood v. Orange Cty., 715 F.2d 1543 (11th Cir. 1983).................................................32
Statutes
28 U.S.C.S. § 1651(a).....................................................................................................14
Fla. Stat. 26.012(g)..................................................................................................29, 31
Rules
11th Cir. R. 26.1..............................................................................................................6
Fed. R. App. P. 38..........................................................................................................37
Fla. R. Civ. Pro. 1.070...................................................................................................29
Fla. R. Civ. Pro. 1.540(b)...............................................................................................31

11

DIRECTLY RELATED CASES PURSUANT TO RULE 14.1(b)(iii)
State Trial CourtCircuit Court for the Eleventh Judicial Circuit for Miami-Dade County
● H&H Investors Inc v. Robert Sarhan, et al.
o

-2009-074988-CA-01

Reversed and Remanded 10/19/2011

● H&H Investors Inc v. Robert Sarhan, et al.

-2012-007970-CA-01

o

Final Judgment entered on 07/31/2017

o

Amended Final Judgment entered on 12/11/2018

State Appellate Court
Florida Third District Court of Appeal
● Robert Sarhan, et al., v. H & H Investors, Inc.
o

Reversed on 10/19/2011

● Robert Sarhan v. H & H Investors, Inc.
o

-3D19-1531

Stay Denied on 08/27/2019

● Robert Sarhan, et al., v. H & H Investors, Inc.
o

-3D19-1322

Per Curiam Affirmed on 09/18/2019

● Robert Sarhan v. H & H Investors, Inc.
o

-3D18-89

Per Curiam Affirmed on 09/05/2018

● Robert Sarhan, et al., v. H & H Investors, Inc.
o

-3D10-3394

-3D19-1701

Motion to Dismiss granted on 12/12/2019

Federal Trial Court
United States District Court for the Southern District of Florida

12

● Sarhan et al v. H & H Investors Inc.
o

Case Dismissed on 06/24/2019

● Sarhan v. H & H lnvestors
o

-1:18-cv-20088-JEM

Case Remanded to State Court on 05/18/2018

● Sarhan et al v. H & H Investors et al
o

-1:19-cv-22588-DPG

-1:19-cv-20368-RNS

Case Dismissed on 02/26/2019

Federal Appellate Courts
United States Court of Appeals for the Eleventh Circuit
● Robert Sarhan v. H & H Investors
o

Appeal of 18-cv-20088

o

Dismissal entered on 07/06/2018

● Robert Sarhan v. H & H Investors, et al
o

Appeal of 19-cv-20368

o

Dismissal entered on 12/20/2019

● Robert Sarhan, et al v. H & H Investors, Inc.
o

Appeal of 19-cv-22588

o

Per Curiam Affirmed on 01/09/2020

-18-12422

-19-11177

-19-12676

Supreme Court of the United States
● Robert Sarhan, et ux., Petitioners v. H & H Investors, Inc.
o

Appeal of 3D19-1322

o

Petition Denied on 06/01/2020

-19-8142

13

OPINIONS AND ORDERS BELOW
The following are the Opinions and Orders from which the Petitioners seek
relief:
Per Curiam Affirmed Order entered on January 9, 2020 in Robert Sarhan
and Anabella Soury v. H&H Investors, Inc. by the United States Court of Appeals
for the Eleventh Circuit. See Sarhan v. H & H Inv’rs, Inc., 796 F. App'x 678 (11th
Cir. 2020).
Order on Sanctions entered on January 9, 2020 in Robert Sarhan and
Anabella Soury v. H&H Investors, Inc. by the United States Court of Appeals for
the Eleventh Circuit. See Sarhan v. H & H Inv’rs, Inc., No. 19-12676-AA, 2020 U.S.
App. LEXIS 767 (11th Cir. Jan. 9, 2020).

14

STATEMENT OF JURISDICTION
The U.S. Supreme Court does not have jurisdiction in this matter. This Court
lacks discretionary jurisdiction to consider this case. Petitioners allege that this
Court's jurisdiction rests on 28 U.S.C.S. § 1651(a). It is well established that:
Where a statute specifically addresses the particular issue at
hand, it is that authority, and not the All Writs Act, that is
controlling. The right of removal is entirely a creature of statute and
a suit commenced in a state court must remain there until cause is
shown for its transfer under some act of Congress. Syngenta Crop
Prot., Inc. v. Henson, 537 U.S. 28, 32, 123 S. Ct. 366, 369 (2002).
INTRODUCTION
The Petitioners, unhappy with their results in state court, attempted to elicit
a different, more favorable result from Federal Court. The District Court properly
found that it does not have jurisdiction over the Petitioners’ Emergency Complaint
pursuant to the Rooker-Feldman doctrine.
Furthermore, the State Court acted within its jurisdictional authority at all
times throughout the proceeding, as Florida law grants Florida circuit courts
jurisdiction over mortgage foreclosures. The Rooker-Feldman doctrine precluded the
Petitioners from raising claims in federal court that are inextricably intertwined
with their unsuccessful state court claims.
The underlying case is a 2012 case, where Final Judgment was finally
entered in 2017. Just recently the Petitioners began to claim that since the Final
Judgment was not served on Ms. Soury that the Final Judgment and Amended
Final Judgment are void. What Petitioners fail to mention is that Anabella Soury

15

was properly served (App. 5) when the State Court proceedings commenced and had
a reasonable opportunity to raise all of her federal and state court claims, as well as
any defenses she may have had. In fact, Ms. Soury litigated against a Motion for
Summary Judgment (App. 8) that was granted against her in 2013, finding she did
not have an interest in the property (App.9). After that ruling, Ms. Soury
abandoned the case. Neither Ms. Soury nor her counsel made any filings on her own
behalf for nearly six (6) years and she otherwise failed to participate in any of the
court’s proceedings. Nevertheless, she was served with several documents providing
notice of a looming trial and pending appeal, among others. Ms. Soury, at any point
throughout the nearly eight years of litigation, could have brought up any claims
that she wished, but chose not to. As a result, the Rooker-Feldman doctrine
precludes her from making new arguments in federal court because she was
unsuccessful in state court.
Another frivolous argument made by the Petitioners stems from Ms. Soury’s
participation, or lack thereof, in a different improper removal case initiated by the
Petitioner Robert Sarhan before the filing of the Emergency Complaint in the
District Court. This argument is irrelevant to the Court’s Rooker-Feldman analysis.
Regardless

of

Ms.

Soury’s

participation

in

that

improper

removal,

the

Rooker-Feldman doctrine precludes Ms. Soury and Dr. Sarhan from bringing a new
action in federal court that is inextricably intertwined with their state court claims
for the sole purpose that they lost in State Court.

16

The Emergency Complaint filed by the Petitioners in District Court was in an
attempt to appeal an Order (App. 12) entered by Judge Hanzman in the State Court
on June 20, 2019. From this Order and hearing stem a range of other frivolous
issues raised by the Petitioners. First, Judge Hanzman’s ruling that Dr. Sarhan
lacked standing and Mr. Morburger could not argue on behalf of a party that he did
not represent was proper. In fact, Judge Hanzman gave Mr. Morburger every
reasonable opportunity to elect to appear on behalf of Ms. Soury at the hearing in
order to make whatever arguments he deemed necessary. (App. 10 at page 6 of
trascript) However, Mr. Morburger’s refusal to appear on behalf of Ms. Soury and
make arguments on her behalf does not amount to an action restricting the
Petitioners from raising any claims at that hearing. Anabella Soury was
represented by counsel, Robert Moore, Esq. In fact, the arguments on her behalf
were made by Robert Moore, Esq. There is no mention of any arguments that were
not made by Robert Moore, Esq. that Mr. Morburger would have made that would
have resulted in a different outcome.
Furthermore, Judge Hanzman’s ruling that Dr. Sarhan could not make any
further pro se filings and must obtain counsel to make new filings as a result of his
abuse of the judicial system is a recognized sanction in Florida courts. Once again,
what filing or argument would Dr. Sarhan have made that the attorneys did not
make that would have resulted in a different outcome?
As a result, Judge Hanzman’s ruling (just as Florida’s Third District Court of
Appeal determined) was proper, and should not otherwise be set aside.

17

Furthermore, the Rooker-Feldman doctrine precluded the federal district court from
entertaining the Petitioners’ action because it lacked jurisdiction.

18

STATEMENT OF THE CASE
Dr. Sarhan and his attorneys, now together with Ms. Soury and her attorney,
for nearly eight years have made baseless, improper, and frivolous filings with the
sole purpose of delaying the underlying foreclosure action for as long as possible.
The Petitioners’ (and their Counsel’s) irresponsible behavior has resulted in a
convoluted procedural history and confusing underlying facts. In addition, their
frivolous actions and pleadings have led to sanctions being entered against the
Petitioners and their attorneys by the Circuit Court for the Eleventh Judicial
Circuit for Miami-Dade County, by the Florida Third District Court of Appeals and
by the U.S. Court of Appeals for the Eleventh Circuit. This specific appeal stems
from a per curiam affirmation by the U.S. Court of Appeals for the Eleventh Circuit
of a dismissal of a case in the U.S. District Court for the Southern District of
Florida.
On June 21, 2019, Petitioners filed an Emergency Complaint in the United
States District Court for the Southern District of Florida. Said Complaint was
promptly dismissed by Judge Darrin P. Gayles because, as stated by Judge Gayles,
“Plaintiffs were recently denied the same sought relief on the same substantive
issues presented here.” Furthermore, Judge Gayles explained that the District
Court lacked jurisdiction pursuant to the Rooker-Feldman doctrine, because the
claims were inextricably intertwined with the State Court claims. A Notice of
Appeal for this Dismissal was filed on July 7, 2019. On that same day, the
Petitioners also appealed the same subject Order from their Emergency Complaint

19

to the Florida Third District Court of Appeal under case number 3D19-1322. The
Florida Third District Court of Appeal per curiam affirmed the Circuit Court Order
on September 18, 2019. Sarhan v. H & H Inv’rs, Inc., No. 3D19-1322, 2019 Fla. App.
LEXIS 14186 (3d DCA Sep. 18, 2019). Petitioners recently also sought a writ of
certiorari from this Court regarding appeal 3D19-1322 that was denied on June 1,
2020. Not surprisingly, the U.S. Court of Appeals for the Eleventh Circuit also per
curiam affirmed the U.S. District Court's dismissal and entered sanctions against
the Petitioners and their counsel due to the fact that they found the appeal
frivolous. Petitioners are seeking relief from said affirmation and sanctions.
The matter before this Court began as a simple and straightforward state
foreclosure case involving Dr. Sarhan’s admitted and repeated breaches of loan
obligations and a subsequent settlement agreement.
Not long after the parties entered into the Settlement Agreement, Dr. Sarhan
defaulted once again. This default served as the catalyst for what would turn into
more than seven (7) years of litigation. Dr. Sarhan and his attorneys unduly
delayed the litigation for 5 ½ years before trial and for more than two years
post-judgement. This baseless appeal is just one of many examples of how the
Petitioners and their attorneys have been successful in delaying the conclusion of
this case for almost eight years.
The Final Judgment was entered for Respondent on July 31, 2017. See
Petitioners’ Exhibit C. Petitioner Sarhan then filed motions for reconsideration and
rehearing, all of which were denied. Ultimately, the matter was appealed to the

20

Third District Court of Appeal of Florida under case No. 3D18-89 and the rulings of
the trial court were per curiam affirmed. Sarhan v. H & H Inv'rs, Inc., 257 So. 3d
996 (Fla. 3d DCA 2018). Further motions for rehearing and for the issuance of a
written opinion were denied. An Amended Final Judgment was entered on
December 11, 2018 that only amended the amounts due regarding attorney’s fees
and costs. See Petitioners’ Exhibit D.
Even though the matter was fully briefed and the decisions of the trial court
were upheld on appeal, the Petitioners' insistence on improperly delaying the
conclusion of this case has led to approximately thirty (30) post-final judgment
filings at the trial court level.
Unfortunately, the Petitioners antics do not end there. Since the entry of the
Final Judgment, the Petitioner Sarhan, now together with Petitioner Soury, have
filed three (3) separate lawsuits in federal court (two of which were improper
removals from state court) that were summarily dismissed, three (3) appeals before
the U.S. Court of Appeals for the Eleventh Circuit on this matter, two (2) actions
before this Court, one of which was denied on June 1, 2020. This is all in addition to
all the post judgment appeals before the Third District Court of Appeals for Florida.
All of these appeals involve post-trial issues the Petitioners raised in an effort
to continue to prolong the conclusion of the underlying case. In addition, as a result
of the trial court and appellate court proceedings, the Petitioners have filed lawsuits
against two (2) trial court judges, three (3) appellate court judges, the Governor of

21

Florida, the director of the FBI, two FBI agents, undersigned counsel, and even a
court reporter. All to no avail.
When none of the previously mentioned removals, appeals, or six (6)
bankruptcies worked, the Petitioners conveniently reverted back to the false claim
that Anabella Soury still had an interest in the property. The Petitioners make
these false claims even though Ms. Soury was left with no interest in the subject
property, pursuant to their Marital Settlement Agreement entered into during their
divorce over eleven years ago. App. 4. The Marital Settlement Agreement remains
in full force and effect until this day. As a result, an order granting summary
judgment was entered against Ms. Soury on April 10, 2013 finding that Ms. Soury
did not have an interest in the property. That order has never been appealed, and is
otherwise still in effect.
Ms. Soury and her attorney, Mr. Robert Moore, Esq., seemingly abandoned
the case for six (6) years after the Order granting the Motion for Summary
Judgment (App. 9) was entered against her. Even so, Mr. Robert Moore, Esq. was
served with numerous documents (64 pleadings) concerning this case, including the
Trial Order and Dr. Sarhan’s first Notice of Appeal. Mr. Robert Moore, Esq. has also
represented Dr. Sarhan in the past.
Despite being served with those documents, Mr. Moore did not attend
mediation or a single deposition, did not file any pleadings, or otherwise participate
in the case. Mr. Moore also did not file so much as a witness list, exhibit list, or
other pretrial motion. Mr. Moore failed and/or refused to appear at what would

22

otherwise have been the calendar call. He made no effort to appear at trial, nor any
of the post-judgment hearings prior to the first appeal.
Anabella Soury now files this meritless case without ever claiming that she
had a meritorious defense nor claiming that she had the ability to cure the breach of
the mortgage, either by having the funds to pay-off the mortgage or that she had a
willing buyer to purchase the property, and pay-off the mortgage with the closing
proceeds. Anabella Soury does not claim that the amount of the Judgment was
calculated incorrectly. In fact Anabella Soury does not even appeal the order
granting the Summary Judgment against her setting forth that any interest that
she may have is inferior to the Respondent’s interest. Ms. Soury simply states that
the Judgment is void as she was never served with the actual Final Judgment or
was ever provided an opportunity to raise all of her claims. This statement is simply
false.

23

REASONS FOR DENYING THE PETITIONS
Given that the following three subdivisions by the Petitioners are highly
related, they will be discussed together in the following paragraphs.
I.

PANEL OPINION CONSISTS OF MATTERS DEHORS THE
RECORD AND OUTSIDE THE “FOUR CORNERS” OF THE
COMPLAINT

II.

THE ANSWER BRIEF AND APPELLEE'S APPENDIX ARE
DEHORS THE RECORD, STRAY OUTSIDE THE FOUR
CORNERS OF THE COMPLAINT, AND DO NOT DISPUTE THE
COMPLAINT'S ALLEGATIONS

III.

THE ANSWER BRIEF'S ARGUMENTS ARE MISDIRECTED
AWAY FROM APPELLANT'S ARGUMENTS AND THEIR
SUPPORTING CITATIONS AND THEREFORE NO REPLY IS
DUE
The Petitioners cite various cases in an attempt to support their contention

that it is inappropriate to base an opinion on assertions that do not form part of the
record. Among their citations, both Hassenflu v. Pyke, 491 F.2d 1094 (5th Cir.1974)
and United States v. Camejo, 929 F.2d 610, 616 (11th Cir. Fla. April 22, 1991) deal
with appellants seeking relief from trial court adjudications where there was little
or no record. In Camejo, the appellant is seeking relief from certain statements
made to the jury in trial. The appellant in Camejo seeks relief by attempting to rely
on certain documents that the appellant himself never propounded into evidence
and for said reason they do not form part of the record. These cases do not apply to
the matters at hand. For example:
The defendant did not offer the letter in evidence. It is
not a part of the record before us. We are in no position to pass
upon its authenticity or contents as corroborating evidence of the

24

defendant. ...The government cannot be faulted for the failure of the
defendant to make a record, nor can it be censored for arguing the
evidence established by it without reference to a document that was
not offered in evidence.
The government also offered evidence of unexplained wealth by
introducing a wire transfer of $ 4,000 to the defendant by his wife
while he was vacationing in Europe where he spent $8,000 in charges.
The defendant contends that the prosecutor should not have argued in
summation that the defendant's wife wired him the money from Miami
to Rome because their passports showed that she accompanied him on
the trip and the passports were shown to the government. The
passports were not offered in evidence and no proffer was
made. They are not a part of the record and are not before us.
We decline to consider matters dehors the record. Hassenflu v. Pyke,
491 F.2d 1094 (5th Cir.1974) (per curiam). In any event, whether or
not the defendant's wife went to Europe with him is of no moment
since the fact remains that he spent $8,000 on a European vacation.
The prosecutor's argument did not affect the substantial rights of the
defendant. Emphasis added. United States v. Camejo, 929 F.2d 610,
616 (11th Cir. Fla. April 22, 1991)
The matter before this Court stems from an Emergency Complaint filed by
the Petitioners in the United States District Court for the Southern District of
Florida. In said Emergency Complaint the Petitioners formed a record which
contained an Order entered by Judge Hanzman on June 20, 2019. (App. 12) The
purpose of the lawsuit was precisely to appeal this Order. The Order by Judge
Hanzman laid out a summarized history of the case and of the frivolous acts
performed by the Petitioners in an attempt to delay the matter further. In addition,
the Order explains how Ms. Soury is not entitled to the relief sought as she was
properly served, filed what was adopted as her “Answer” and summary judgment
was entered against her in 2013. Petitioners now complain that the Court appears
to have considered the Order that they themselves submitted into the record. A copy

25

of a written instrument that is an exhibit to a pleading is a part of the pleading
for all purposes. Fed. R. Civ. P. 10(c); Seay v. Eagle Cleaning Serv., No.
2:18-cv-01522-LSC, 2019 U.S. Dist. LEXIS 71625, at *4 (N.D. Ala. Apr. 29, 2019).
Even though this Order was submitted by the Petitioners to the District Court
when they filed the “new” lawsuit and to the Eleventh Circuit when they appealed
the dismissal, they have now conveniently omitted the Order from their Appendix.
See Petitioners’ Exhibit C1 on page 2 where it shows that the Hanzman Order
should be attached to said document in subsection G.
The petitioners now claim that they have been prejudiced by the Court
having reviewed and seemingly adopted said Order, yet they fail to plead how the
result would have been any different if they had not.
The short answer to this argument is that it amounts to no more
than speculation and conjecture and has no support in the record. ... In
fact, the sole ground stated in the district court in support of this
motion for a mistrial was that the juror was in no state of mind to
fairly and impartially consider the defendants' guilt or innocence. The
recitation in this court of what the defendants might have elicited from
questioning the juror was neither submitted to nor argued to the trial
judge. Emphasis added. United States v. Camejo, 929 F.2d 610, 615
(11th Cir. 1991)
Furthermore, Petitioners claim that all matters presented by the Respondent
are matters “dehors” of record and should not be admitted. They further state that
Respondent did not file any answer or response to the Emergency Complaint filed in
the United States District Court for the Southern District of Florida. Again,
Petitioners fail to point out that said Emergency Complaint was dismissed sua

26

sponte on June 24, 2019 via Paperless Order entered by Judge Darrin P. Gayles
within three (3) days of the Emergency Complaint being filed. The Order of
dismissal clearly states that the Petitioners are seeking review from a Florida state
court order denying them relief. The Order further states the Court lacks
jurisdiction and states the grounds upon which the Court relied to dismiss the case.
Among the reasons listed was the Rooker-Feldman doctrine. See Petitioners’
Exhibit C1 at page 4 (D.E. [5]).
Nonetheless, it can be argued that where the underlying complaint omitted a
crucial, undisputed fact in an attempt to, for example, acquire jurisdiction, the court
may consider extrinsic facts.
In most cases, a court deciding whether a duty to defend existed
looks only to the four corners of the underlying complaint and the four
corners of the insurance policy. Id. However, the Eleventh Circuit has
recognized "a limited exception to the eight corners rule, in which a
court may consider extrinsic facts 'if those facts are undisputed, and,
had they been pled in the complaint, they clearly would have placed
the claims outside the scope of coverage.'" Id. (quoting Stephens v.
Mid-Continent Cas. Co., 749 F.3d 1318, 1323 (11th Cir. 2014)). The
Court explained that the exception "is limited to 'exceptional cases in
which courts have crafted an equitable remedy when it is manifestly
obvious to all involved that the actual facts placed the claims outside
the scope of coverage.'" Id. (quoting Stephens); see also Wilson v. Gen.
Tavern Corp., 469 F. Supp. 2d 1214, 1220 (S.D. Fla. 2006) ("[T]he
[underlying] complaint omitted [a] crucial, undisputed fact in a patent
attempt to 'plead into coverage.'"). BBG Design-Build, LLC v.
Southern-Owners Ins. Co., 2019 U.S. Dist. LEXIS 223307, *5 (N.D.
Fla. October 11, 2019)
A review in detail of the Hanzman Order, which was the Order from which
Petitioners were seeking relief in their Emergency Complaint, the Paperless Order
dismissing their Emergency Complaint at the District Court level, and finally the

27

Order entered by the Eleventh Circuit which is being appealed to this Court, they
all align to conclude the same reasoning. Ms. Soury had her day in court and the
federal system has no jurisdiction to relitigate this matter.
IV.

THE JUDGMENT, AMENDED JUDGMENT, AND APPEAL
WERE ALL PROSECUTED WITHOUT ANY NOTICE TO
ANABELLA OR HER ATTORNEY ROBERT L. MOORE,
THEREBY
DEPRIVING
THE
STATE
COURT
OF
JURISDICTION OVER HER PERSON AND RENDERING THE
ROOKER-FELDMAN DOCTRINE INAPPLICABLE TO HER.
As mentioned before, Petitioners fail to mention that Anabella Soury was

properly served (App. 5) when the State Court proceedings commenced and had a
reasonable opportunity to raise all of her federal and state court claims, as well as
any defenses she may have had. Ms. Soury filed a pleading (App. 6) that was
accepted as her “Answer” (App. 7) In fact, Ms. Soury litigated against a Motion for
Summary Judgment (App. 8) that was granted against her in 2013, finding she did
not have an interest in the property (App. 9). After that ruling, Ms. Soury
abandoned the case. Neither Ms. Soury nor her counsel made any filings on her own
behalf for nearly six (6) years and she otherwise failed to participate in any of the
court’s proceedings. Nevertheless, she was served with several documents providing
notice of a looming trial and pending appeal, among others. Ms. Soury, at any point
throughout the nearly eight years of litigation, could have brought up any claims
that she wished, but chose not to. As a result, the Rooker-Feldman doctrine
precludes her from making new arguments in federal court because she was
unsuccessful in state court.

28

The Petitioners attempt to mislead this Court by claiming that Ms. Soury did
not have an opportunity to raise her federal claims in State Court and therefore the
Final Judgment and Amended Final Judgment were entered without jurisdiction
over Ms. Soury. As support to their contention they cite Ass'n for Disabled Ams.,
Inc. v. Amoco Oil Co., 211 F.R.D. 457, 472 (S.D. Fla. 2002), Miami Bank & Tr. Co. v.
Rademacher Co., 149 Fla. 24, 5 So. 2d 63, 64 (1941), and Blonder v. AGC Grp., Inc.
(In re Blonder), No. 13-76658-JRS, 2015 Bankr. LEXIS 3352 (Bankr. N.D. Ga. Sep.
28, 2015). The cited cases consist of matters where reference is made to either
“nonparties”, or that "a notice of an appeal was insufficient to make someone a
party", or that "a person should not be bound by a judgment or verdict to which he
was not a party". What Petitioners fail to clarify is that Ms. Soury was a party, Mr.
Soury was served and there was a summary judgment entered against her.
Anabella Soury now files this meritless case without ever claiming that she
had a meritorious defense nor claiming that she had the ability to cure the breach of
the mortgage, either by having the funds to pay-off the mortgage or that she had a
willing buyer to purchase the property, and pay-off the mortgage with the closing
proceeds. Anabella Soury does not claim that the amount of the Judgment was
calculated incorrectly. In fact Anabella Soury does not even appeal the order
granting the Summary Judgment against her setting forth that any interest that
she may have is inferior to the Respondent’s interest.
The State Court acted under its jurisdictional authority at all times
throughout the course of the proceedings. Florida state courts, by statute, are

29

granted exclusive original jurisdiction over “all actions involving the title and
boundaries of real property.” See Fla. Stat. 26.012(g). The underlying action in this
case is a simple mortgage foreclosure case involving title to property in Miami-Dade
County, Florida. There is not, and never has been, any dispute, as to the state
court’s jurisdictional authority in this case. On the contrary, the Petitioners’ use of
this nonsensical jurisdictional argument is a product of their lack of success in state
court proceedings. In the event that this Court finds that the state court lacked
jurisdiction, this Court has never recognized an exception to the Rooker-Feldman
doctrine on that basis. Casale v. Tillman, 558 F.3d 1258, 1261 (11th Cir. 2009).
The Rooker-Feldman doctrine does not permit federal district courts to
review state court judgments because that authority rests with state appellate
courts, and as a last resort, the United States Supreme Court. See D. C. Court of
Appeals v. Feldman, 460 U.S. 482. The doctrine applies to both federal claims
raised in state court and claims that are “inextricably intertwined” with the state
court’s judgment. Id. Claims are inextricably intertwined if they would "effectively
nullify" the state court judgment, Powell v. Powell, 80 F.3d 464, 467 (11th Cir.
1996), or they "succeed only to the extent that the state court wrongly decided the
issues." Tillman, 558 F.3d at 1260.
In Florida, circuit court’s by statute, have jurisdictional authority to hear all
mortgage foreclosure cases. Fla. Stat. 26.012(g). Fla. R. Civ. Pro. 1.070 controls
service of process after the commencement of each action. Lastly, this Court does
not recognize an exception to the Rooker-Feldman doctrine when the state court’s

30

judgment was void because the state court lacked jurisdiction. Tillman, 558 F.3d at
1261.
The instant appeal is more of the same from the Petitioners. Incoherent
arguments that are difficult to follow and respond to. Nevertheless, this appeal, like
the majority of the others filed in this, and related matters, is frivolous and lacks
any and all merit.
Commencing litigation as a result of a parties lack of success in the state
court system is precisely the kind of litigation the Rooker-Feldman doctrine
disallows. D. C. Court of Appeals v. Feldman, 460 U.S. at 482; see also Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005) (stating that the
Rooker-Feldman doctrine continues to apply with full force to "cases brought by
state-court losers complaining of injuries caused by state-court judgments rendered
before the district court proceedings commenced and inviting district court review
and rejection of those judgments”). The Petitioners’ complaint is the perfect example
of why the Rooker-Feldman doctrine exists. They have attempted to seek relief from
the Final Judgment and Judge Hanzman’s order in every way, shape, or form, and
have finally gone too far.
The reason the Petitioners insist on seeking relief from Judge Hanzman’s
Order is because they improperly delayed the underlying simple foreclosure case for
over seven (7) years. As a result, when Judge Hanzman attempted to put a stop to
their irresponsible behavior and waste of judicial resources, the Petitioners were
left with no other option but to start filing meritless pleadings in another court.

31

They continue to improperly file pleadings in different courts, including this Court,
because whenever they attempt to litigate the matter on its merits, they are
unsuccessful. In fact, when seeking review of Judge Hanzman’s Order using proper
process, in an appeal No. 3D19-1322 to Florida’s Third District Court of Appeal, the
state appellate court per curiam affirmed Judge Hanzman’s Order. Sarhan v. H & H
Inv’rs, Inc., No. 3D19-1322, 2019 Fla. App. LEXIS 14186 (3d DCA Sep. 18, 2019).
Petitioners thereafter sought a writ of certiorari from this Court in case number
19-8142 that was denied. As a result, the Petitioners continue to attempt to
circumvent the judicial system in any way they can, regardless of merit and ethical
considerations.
Therefore, this Court should affirm the lower court’s decision that it lacks
jurisdiction to adjudicate the Petitioners’ Emergency Complaint pursuant to the
Rooker-Feldman doctrine, and find that the state court acted within the
jurisdictional authority prescribed to it by Fla. Stat. 26.012(g) at all times
throughout the state court proceedings.
V.

ROOKER-FELDMAN DOCTRINE HAS NO APPLICATION TO A
STATE COURT PROCEEDING WHERE ANABELLA HAD NO
REASONABLE OPPORTUNITY TO RAISE HER FEDERAL
CLAIMS OR TO APPEAL, AND HAS NO APPLICATION TO
FLORIDA RULE OF CIVIL PROCEDURE RULE 1.540(B)(4)
MOTION PROCEEDINGS
The Petitioners as they often do, attempt to mischaracterize the events that

have transpired and the law at issue. Here, the Petitioners seem to conflate their
Fla. R. Civ. Pro. 1.540(b) motions in state court with the action they commenced in

32

the lower court. The proper forum for the Rule 1.540(b) motion they filed was the
State Court in which it was litigated. Those motions were summarily denied.
The commencement of an action that, at its core, seeks a review of Judge
Hanzman’s Order (App. 12) and automatically triggers the Rooker-Feldman
doctrine and as a result does not grant the District Court jurisdiction to litigate the
matter. However, the Petitioners continue to engage in classic “shotgun litigation”
and assert any and every issue they can think of and hoping something sticks.
In their petition, the Petitioners claim that as discussed in Wood v. Orange
Cty., 715 F.2d 1543 (11th Cir. 1983) and United States v. Napper, 887 F.2d 1528
(11th Cir. 1989) the Rooker-Feldman Doctrine does not apply to the case at bar.
Both cases are highly distinguishable from the case at bar as explained below. First,
Wood clearly concludes that:
Since plaintiffs did not have a reasonable opportunity to raise
their claims in the state trial court where judgment was entered or on
appeal of that judgment, the district court will not usurp the role of
state appellate courts or the Supreme Court by accepting jurisdiction.
The plaintiffs' allegations were not "inextricably intertwined" with the
state court judgment. Emphasis added. Wood v. Orange Cty., 715 F.2d
1543, 1548 (11th Cir. 1983)
This is simply not the case for Ms. Soury. As explained numerous times
throughout this Brief, Ms. Soury had ample opportunity to raise her claims in State
Court and chose not to. Napper as well is distinguishable as the party upon which
the Rooker- Feldman Doctrine does not apply was never a party to the proceedings.
The party sought to intervene in the State Court proceeding and later sought relief

33

from the District Court. The party never had an opportunity to raise the issues
involved in the State Court, therefore Rooker did not apply.
It is clear that this case does not fall within the confines of the
Rooker-Feldman doctrine as thus formulated. The government brought
a new action in the district court to recover its documents from the
City. The government was not a party to the state proceeding; it
[**19] cannot and does not appeal that decision. Nor does the
government appeal the state court's denial of its motion to intervene.
Emphasis added. United States v. Napper, 887 F.2d 1528, 1534 (11th
Cir. Ga. November 13, 1989)
Anabella Soury had a reasonable opportunity in State Court to raise any
federal claims, appeal the judgment entered against her, and assert any defenses
she deemed proper, but failed to. She was properly served on July 30, 2012 (App. 5);
and filed an “Objection to Foreclosure” (App. 6) on September 17, 2012. That
pleading was adopted by the court as her “Answer to Complaint” via Order dated
October 31, 2012. App. 7. Plaintiff filed a Motion for Summary Judgment (App. 8)
against Anabella Sarhan on December 31, 2012 that was later granted by Order
entered on April 10, 2013, finding that she had no interest in the property. App. 9.
Logically, she thereafter seemingly abandoned the litigation and Ms. Soury nor her
counsel made any filings on her behalf for nearly six (6) years. Furthermore, Ms.
Soury, otherwise failed to participate in any of the court’s proceedings.
Nevertheless, Ms. Soury’s attorney Robert Moore was served with sixty-four (64)
different documents, and did not respond to a single one. Among these documents
was a Trial Order and Dr. Sarhan’s first Notice of Appeal. The state appellate court
found that these documents served as sufficient notice of the looming trial and

34

impending appeal. Despite having been served with these documents, Ms. Soury
and her counsel refused or otherwise chose not to participate in the litigation.
However, Ms. Soury and her counsel’s affirmative decision not to participate in the
litigation does not equate to a lack of a reasonable opportunity to assert her federal
claims in state court. As a result, the Rooker-Feldman doctrine does apply and the
district court did not have jurisdiction to adjudicate the Petitioners’ complaint.
VI.

THE COURT'S RELIANCE ON JUDGE SCOLA'S REMARKS IN
REGARD TO THE REMOVAL OVERLOOKS THE FACT THAT
ANABELLA WAS NOT A PARTY TO THE REMOVAL AND WAS
NOT A PARTY TO THE APPEAL TO WHICH JUDGE SCOLA
REFERRED
As mentioned previously, Dr. Sarhan has attempted to delay these

proceedings in countless ways. After breaching the stipulated agreement Dr.
Sarhan concocted numerous delay tactics to prevent the inevitable from happening:
a foreclosure judgement. When bankruptcy was no longer an option due to abusive
and continuous bankruptcies filed by the Petitioners, Dr. Sarhan found new
alternatives to delay. Final Judgement was eventually entered after approximately
five years of delays and litigation. Three years have elapsed since the Final
Judgement was entered, and Dr. Sarhan continues to frivolously file pleadings in
this matter. When Dr. Sarhan and his attorney ran out of options, they decided to
bring Mrs. Soury back into the equation falsely as a last ditch attempt to continue
to delay the proceedings. The truth is, Dr. Sarhan and his attorney’s irresponsible
behavior has led to a convoluted and nearly incomprehensible procedural history

35

regarding this case. Nevertheless, Ms. Soury’s participation, or lack thereof, in an
improper removal case does not change the fact that the Petitioners are simply
wasting judicial resources while they attempt to use the federal courts to review a
State Court judgment they disagree with. For this, the Defendants and their
Counsel have been sanctioned, and should once again be sanctioned and an award
of attorney's fees and double costs should be made.
VII.

ROOKER-FELDMAN DOCTRINE HAS NO APPLICATION TO
ANY RULE l.540(B) PROCEEDING OR TO ANY OTHER
CRIMINALLY SANCTIONED PROCEEDING IN WHICH
ROBERT SARHAN OR ANABELLA DID NOT AND WILL NOT
HAVE A REASONABLE OPPORTUNITY TO RAISE THEIR
FEDERAL CLAIMS IN THE STATE COURT
The Petitioners use this section of their brief to, once again, mischaracterize

the events that transpired at the state court level and the relevant case law. Judge
Hanzman’s order that Dr. Sarhan be unable to access the courts on this issue
without the assistance of counsel is a recognized sanction in Florida. See Lomax v.
Reynolds, 119 So. 3d 562, 565 (Fla. 3d DCA 2013) (holding that a pro se litigant’s
abuse of the judiciary required him to obtain counsel for all future filings).
Furthermore, Judge Hanzman did not instruct the Petitioners’ attorneys to refrain
from making any filings, Judge Hanzman simply reminded Mr. Moore and Mr.
Morburger that any frivolous filings could result in sanctions.
Furthermore, two distinct hearings took place before Judge Hanzman.
Neither Dr. Sarhan nor his attorney were allowed to make arguments at the second
hearing, since Judge Hanzman found Dr. Sarhan lacked standing on the issue at

36

hand and Mr. Morburger was not appearing on behalf of Ms. Soury. However, in
order to grant Mr. Morburger an opportunity to make said arguments, Judge
Hanzman gave Mr. Morburger several opportunities to file an appearance on behalf
of Ms. Soury at that very hearing. Mr. Morburger, however, refused to do so. Ms.
Soury’s attorney who was also present, Mr. Robert Moore, Esq., then proceeded to
make the argument on her behalf. See App. 10.
As previously stated, the Petitioners have not demonstrated what argument
would have been made that would have somehow resulted in a different outcome, or
even what prejudice was suffered. As a result, the lower court’s refusal to allow Mr.
Morburger to argue on behalf of Ms. Soury is not improper, and this Court should
find that Judge Hanzman’s ruling did not deprive the Petitioners of their
opportunity to raise their Federal claims.
ATTORNEY’S FEES COSTS AND SANCTIONS
In the case which the Petitioners are currently appealing to this Court, the
Respondent filed a motion for appellate sanctions, attorney’s fees and costs, against
the Petitioners for filing a frivolous, bad faith appeal. The motion was filed
pursuant to Fed. R. App. P. 38. The 11th Circuit Court of Appeals granted this
motion. See Sarhan v. H & H Inv’rs, Inc., No. 19-12676-AA, 2020 U.S. App. LEXIS
767 (11th Cir. Jan. 9, 2020). The State Court and Florida Third District Court of
Appeal have granted sanctions against the Petitioners as well.

37

Petitioners are continuing the same appeal of the State Court’s decision to
this Court, which is a continuation of their frivolous and bad faith litigation
practices. As such, Respondent requests that sanctions, attorney’s fees and costs be
awarded to Respondent, against Petitioners, pursuant to Fed. R. App. P. 38 and the
inherent authority of the Supreme Court. See Taiyo Corp. v. Sheraton Savannah
Corp., 49 F.3d 1514 (11th Cir. 1995). Respondent expects to file a separate motion
in accordance with the above and requests the Supreme Court reserve jurisdiction
for the sole purpose of making such an award against Petitioners, or in the
alternative, remand the case to determine the amount of sanctions, fees and costs to
be awarded.
CONCLUSION
This is a simple mortgage foreclosure case involving the breach of a
Stipulation for an admitted lack of payment on a loan that has by this time
matured. For more than seven (7) years, the Petitioners have raised every issue
imaginable. There are simply no issues left that have not already been litigated.
This appeal is simply a ruse conjured by Dr. Sarhan to create more issues, through
his former wife, because all other issues have been exhausted.
Ms. Soury relinquished her interest in the subject property pursuant to divorce
decree prior to the institution of this foreclosure action. The Judgment is otherwise
valid because Ms. Soury was given adequate service of process. Ms. Soury was given
sufficient notice that the case had been initiated against her, she was properly

38

named as a Defendant, and she was given every opportunity possible to be heard.
Ms. Soury was also served with several documents, despite having a Motion for
Summary Judgment entered against her, including the Trial Order. Ms. Soury
simply chose not to participate in the proceedings. Ms. Soury has not demonstrated
how the outcome would otherwise have been different.
Furthermore, The court’s alleged failure to serve a copy of the Final Judgment
onto Ms. Soury does not affect the validity or finality of the judgment in any way.
Even so, there is no mention that Ms. Soury was unaware of the Final Judgment’s
existence nor that Dr. Sarhan did not tell her of the Final Judgment in this matter.
The parties allegedly both resided on the subject property together. Mr. Moore is
also Dr. Sarhan’s attorney in other matters.
Lastly, it should be indisputable that this case has met its end. A writ of
possession has been served and the Respondent is in possession of the property. Dr.
Sarhan, Ms. Soury, and their legal team have done everything they can to delay this
foreclosure case for as long as possible. The Petitioners have time and time again
shown an utter disregard for the judicial process and seemingly believe that they
are above the law. However, the time has come for Dr. Sarhan and his legal team to
come to terms with the findings of the judicial system. The litigation at hand must
come to an end to allow the Respondent, undersigned counsel, and everyone else
involved in this baseless case to move on with their lives.

39

CERTIFICATE OF COMPLIANCE
This Brief in Opposition is filed in accordance with Rule 33 of the Rules of the
Supreme Court and in accordance with the Order List: 589 U.S. dated April 15,
2020. The word count for this Brief, excluding the allowed sections, is 7,556.
/s/ Raul Gastesi, Jr.
RAUL GASTESI, JR.
Counsel for Respondent H&H Investors, Inc
CERTIFICATE OF SERVICE
I CERTIFY that the foregoing document has been furnished by e-mail and
mail this 12th day of June, 2020 to:
ARTHUR J. MORBURGER
Attorney for Petitioners
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-374-3373
Amorburger@bellsouth.net

Respectfully submitted,
/s/ Raul Gastesi, Jr.
RAUL GASTESI, JR.
Counsel of Record
GASTESI, LOPEZ & MESTRE, PLLC.
8105 NW 155th Street
Miami Lakes, Florida 33016
Tel: 305-818-9993
Fax: 305-818-9997
efiling@glmlegal.com
gastesi@glmlegal.com
Counsel for Respondent H&H Investors, Inc.

